    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                        Office of Inspector General


                                                                                  Washington, D.C. 20201



                                                MAR 3 1 2008




TO:               Kerry Weems
                  Acting Administrator
                  Centers for Medicare & Medicaid Services


FROM:             Daniel R. Levinson        ~ I. ~
                  Inspector General


SUBJECT:          Memorandum Report: "Hospice Beneficiaries' Use of Respite Care,"
                  o EI-02-06-00222

This memorandum report describes hospice beneficiaries' use of inpatient respite care in
2005 and identifies billing practices for such care. It is part of ongoing work by the Office
ofInspector General (OIG) on the Medicare hospice benefit and is a followup to an earlier
OIG report, "Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities
and Beneficiaries in Other Settings," OEI-02-06-00220.

In response to our previous report, staff at the Centers for Medicare & Medicaid Services
(CMS) asked us to provide additional information about hospice beneficiaries' use of
inpatient respite care. Respite care is short-term inpatient care that provides respite for the
individual's family or other persons caring for the individual at home. l Staff at CMS were
concerned particularly about beneficiaries' use of inpatient respite care when they resided
in nursing facilities.

We found that 2 percent of all hospice beneficiaries received respite care during 2005.
Most ofthese beneficiaries received respite care for a total of 5 days or less. We also
found a number of instances in which the use of respite care may have been inappropriate.
Fifty-four beneficiaries received respite care longer than the 5 consecutive days allowed by
Federal regulations and 62 beneficiaries received respite care while residing in nursing
facilities, contrary to Federal requirements. We will provide additional information about
these potentially inappropriate cases to CMS in a separate memorandum. In addition, we
note that the information that is available on hospice claims limits CMS's ability to
determine whether hospice agencies are complying with the requirement that they may not
be reimbursed for more than 5 consecutive days of respite care at a time.



142 CFR § 418.204(b).


OEI-02-06-00222   Hospice Beneficiaries' Use of Respite Care
Page 2 – Kerry Weems


BACKGROUND

The Medicare Hospice Benefit
The Medicare hospice benefit allows a beneficiary with a terminal illness to forgo curative
treatment for the illness and instead receive palliative care, which is the relief of pain and
other uncomfortable symptoms. To be eligible for Medicare hospice care, a beneficiary
must be entitled to Part A of Medicare and be certified as having a terminal prognosis with
a life expectancy of 6 months or less, should the disease run its normal course. The
number of Medicare beneficiaries receiving hospice care has increased significantly in
recent years, growing from approximately 594,000 in 2001 to 871,000 in 2005.2

Inpatient Respite Care
Inpatient respite care (hereafter referred to as “respite care”) is one of four levels of
hospice care available to Medicare beneficiaries. The other levels are routine home care,
which is the most commonly provided level of care; continuous home care; and general
inpatient care.3 Respite care is short-term inpatient care provided to the beneficiary when
necessary to relieve the beneficiary’s caregiver. The Medicare unadjusted daily rate4 for
respite care in 2005 was $126.18. In addition, hospice agencies may bill beneficiaries for
5 percent of the daily rate for respite care.5 The amount collected from the beneficiary is
not reported on Medicare hospice claims.

Respite care may be provided directly by the hospice agency or indirectly under
arrangements made by the hospice. Respite care must be provided by a hospice, hospital,
skilled nursing facility, or intermediate care facility that meets the standards for respite
care set forth in regulation.6

Respite care is subject to several limitations. Respite care may be provided only on an
occasional basis and may not be reimbursed for more than 5 consecutive days at a time.7
Also, the total number of inpatient care days (general inpatient care or respite) for
Medicare beneficiaries in a particular hospice agency may not exceed 20 percent of the
total days for which these beneficiaries had elected hospice care.8




2
  Centers for Medicare & Medicaid Services, “Medicare Hospice Data – 1998-2005” (December 26, 2007). 

Available online at http://www.cms.hhs.gov/ProspMedicareFeeSvcPmtGen/downloads/HospiceData1998-
2005.pdf. Accessed January 15, 2008. 

3
  General inpatient care is for pain control or symptom management that cannot be managed in other settings. 

42 CFR § 418.302(b)(4).

4
  Payment rates are adjusted to reflect local differences in wages. 42 CFR § 306(c). 

5
  42 CFR § 418.400(b). 

6
  42 CFR §§ 418.98 and 418.100. 

7
  42 CFR § 418.204(b)(2). 

8
  42 CFR § 418.98(c). 



OEI-02-06-00222   Hospice Beneficiaries’ Use of Respite Care
Page 3 – Kerry Weems


METHODOLOGY

The information provided in this memorandum report is based on an analysis of Medicare
claims for hospice care. It is based on the same data that we used in our previous report,
“Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities and
Beneficiaries in Other Settings,” OEI-02-06-00220.

As we did in our previous report, we identified all beneficiaries who received hospice care
in 2005 using the Medicare Part A hospice claims from the National Claims History file
for 2005. We also included claims from the 2006 file that covered days of service that
occurred in 2005. Hospice agencies typically submit claims that cover a 1-month period.
Therefore, some claims from the 2006 file included days from 2005. We identified the
beneficiaries who received respite care by using the revenue codes on their hospice claims.

We identified the beneficiaries who received respite care and resided in nursing facilities
using the Minimum Data Set (MDS). We compared beneficiaries’ respite claim dates to
beneficiaries’ MDS dates to identify the beneficiaries who received respite care while they
were in nursing facilities. The MDS includes assessments on all residents in Medicare-
certified or Medicaid-certified long term care facilities, including skilled nursing facilities.
For the purpose of this report, we refer to all such facilities as nursing facilities. We
considered a beneficiary to be a resident of a nursing facility if the beneficiary had an MDS
assessment. Nursing facilities complete these assessments at scheduled intervals during a
resident’s time in a facility and when a resident’s health status changes.

We analyzed the claims data to determine the proportion of hospice beneficiaries who
received respite care during 2005, the number of days that they received respite care, and
the number of claims that they had that included respite care. Finally, we identified the
hospice beneficiaries who received respite care for more than 5 consecutive days and those
who received respite care while they were residents of nursing facilities.

We had to limit our analysis in several ways because of the information that was available
on hospice claims. Hospice claims include the number of days for each level of care but
they do not include the specific dates that the beneficiaries received each level of care.
Therefore, we had to base the number of beneficiaries who received respite care for more
than 5 consecutive days on the claims that included only respite care. We also identified
beneficiaries who had claims that included respite care and other levels of hospice care. In
these cases, we could not determine whether the dates that the beneficiaries received
respite care were consecutive. Therefore, the number of beneficiaries who received respite
care for more than 5 consecutive days could be higher than stated in the findings.

This review was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.



OEI-02-06-00222   Hospice Beneficiaries’ Use of Respite Care
Page 4 – Kerry Weems


RESULTS

Two Percent of Hospice Beneficiaries Received Respite Care During 2005
In 2005, 2 percent of all hospice beneficiaries, or 17,669 beneficiaries, received respite
care. Medicare payments for respite care for these beneficiaries were approximately
$12.8 million, an average of $722 per beneficiary who received respite care.

The most common diagnosis categories for beneficiaries who received respite care were
cancer, circulatory disease, and ill-defined conditions. These were also the most common
diagnosis categories for hospice beneficiaries who did not receive respite care. The two
groups differed slightly in terms of geographic location. As Table 1 shows, beneficiaries
who received respite care were more likely to reside in the Midwest and West, compared to
hospice beneficiaries who did not receive respite care.

Table 1: Location of Hospice Beneficiaries During 2005
                      Hospice Beneficiaries                         Hospice Beneficiaries
    Region
                    Who Received Respite Care                  Who Did Not Receive Respite Care
Northeast                     11%                                           17%
Midwest                       30%                                           24%
South                         34%                                           38%
West                          24%                                           20%
Source: Office of Inspector General analysis of 2005 Medicare claims, 2007.
Note: Percentages do not add up to 100 percent because of rounding.

Most Hospice Beneficiaries Who Received Respite Care Received It for 5 Days or
Less
Eighty-one percent of beneficiaries who received respite care received it for a total of
5 days or less in 2005. On average, beneficiaries received respite care for 5.6 days in
2005. The number of days in respite care ranged from 1 to 122. In addition, 92 percent of
beneficiaries who received respite care in 2005 had one or two claims that included respite
care. The remaining 8 percent of beneficiaries had three or more claims that included
respite care. These beneficiaries often received respite care every month during which
they were in hospice care.

Beneficiaries who had three or more respite claims had diagnoses different from those of
beneficiaries who had fewer claims. Table 2, on the next page, shows the distribution of
the most common diagnosis categories for these two groups of beneficiaries. Beneficiaries
with three or more respite claims were more than twice as likely to have Alzheimer’s or
another nervous system disease, compared to beneficiaries with fewer claims. Also,
beneficiaries with three or more respite claims were less than half as likely to have cancer,
compared to those with fewer claims.




OEI-02-06-00222   Hospice Beneficiaries’ Use of Respite Care
Page 5 – Kerry Weems



Table 2: Common Diagnosis Categories of Hospice Beneficiaries
                                        Beneficiaries With One           Beneficiaries With Three
     Diagnosis Categories                or Two Claims That                or More Claims That
                                        Included Respite Care             Included Respite Care
Alzheimer’s and Other
                                                    11%                           24%
Nervous System Diseases
Cancer                                              38%                           17%
Circulatory Diseases                                20%                           23%
Ill-Defined Conditions                              11%                           15%
Mental Disorders                                    4%                            7%
Respiratory Diseases                                9%                            8%
Other                                                7%                            6%
Source: Office of Inspector General analysis of 2005 Medicare claims, 2008.

A Small Number of Beneficiaries Received Respite Care for More Than
5 Consecutive Days
According to Federal regulation, respite care may not be reimbursed for more than
5 consecutive days.9 We identified 54 beneficiaries who received respite care for more
than 5 consecutive days in 2005. One of these beneficiaries received respite care for
122 consecutive days at a cost of $16,726. The 54 beneficiaries did not exhibit any
significant patterns in terms of diagnoses, hospice providers, or location by State.

Another 685 beneficiaries had claims for respite care for more than 5 days. However,
these claims included at least one other level of care in addition to respite care. Because of
the information that was available on the hospice claims, we could not determine whether
the days on which these beneficiaries received respite care were consecutive.

A Small Number of Beneficiaries Received Respite Care While They Were Residents
of a Nursing Facility
Respite care is intended to provide respite for the beneficiary’s family or other persons
caring for the beneficiary at home. It is to be provided “only when necessary to relieve the
family members or other persons caring for the [beneficiary].”10 Beneficiaries who were
cared for at home sometimes entered nursing facilities to receive respite care and then
remained in the facilities instead of returning home. These beneficiaries typically entered
facilities and received 5 days of respite care. After 5 days, the beneficiaries did not return
home but instead stayed in the facilities and received routine or other levels of hospice
care.

However, we identified 62 beneficiaries who received respite care in 2005 when they had
already been residing in nursing facilities. Beneficiaries who reside in facilities are cared
for by facility staff, unlike beneficiaries who reside at home and are often cared for by
9
    42 CFR § 418.204.
10
     42 CFR § 418.204(b).


OEI-02-06-00222    Hospice Beneficiaries’ Use of Respite Care
Page 6 – Kerry Weems


family members. The beneficiaries who received respite care while already residing in
nursing facilities did not exhibit any significant patterns in terms of diagnoses or hospice
providers. Nineteen of the sixty-two beneficiaries were from Texas or California.

CONCLUSION

We found that respite care was infrequently used in 2005. Two percent of all hospice
beneficiaries received respite care and most of these beneficiaries received the care for a
total of 5 days or less. We also found a number of instances in which the use of respite
care may have been inappropriate. Fifty-four beneficiaries received respite care for more
than 5 consecutive days and 62 beneficiaries received respite care while residing in nursing
facilities, even though respite care is designed to relieve a beneficiary’s caregiver. One
beneficiary was included in both of these groups. We will provide additional information
about these potentially inappropriate cases to CMS in a separate memorandum.

In addition, we note that the information that is available on the hospice claim limits
CMS’s ability to determine whether hospice agencies are complying with the requirement
that they may not be reimbursed for more than 5 consecutive days of respite care at a time.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-02-06-00222 in all correspondence.




OEI-02-06-00222   Hospice Beneficiaries’ Use of Respite Care
